BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Mark Cheeseman v. John Polillo, Chief of
the Glassboro, New Jersey Police Department; and
Kevin T. Smith, Superior Court Judge, Gloucester
County, New Jersey, were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 28th day of June, 2019:
Dana R. Anton
Gloucester County Prosecutor's Office
P.O. Box 623
Woodbury, NJ 08096
(856) 384-5500
danton@co.gloucester.nj.us

Counsel for Respondents
Gurbir Singh Grewal
Office of The Attorney General of New Jersey
RJ Hughes Justice Complex
25 Market Street, Box 080
Trenton, NJ 08625-0080

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A. KERSHNER, J.D.

David D. Jensen
Counsel of Record
DAVID JENSEN PLLC
111 John Street, Suite 420
New York, New York 10038
(212) 380-6615
david@djensenpllc.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 28, 2019.

DonnaJ.w~
O
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JULIE ANNE KERSHNER
~.iotary Public, State of Ohio
l~y Commission Expires
February 21, 2023

